TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Coordination and Monitoring Are Needed
                       for Continued Improvement in the
                        Tax Return Preparation Process
                      at the Taxpayer Assistance Centers



                                         September 2005

                              Reference Number: 2005-40-147




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Web Site          | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 9, 2005


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                       Pamela J. Gardiner
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Coordination and Monitoring Are Needed for
                             Continued Improvement in the Tax Return Preparation Process
                             at the Taxpayer Assistance Centers (Audit # 200540001)

 This report presents the results of our review of the Internal Revenue Service (IRS) Taxpayer
 Assistance Centers (TAC). The overall objective of this review was to determine whether
 taxpayers receive quality service, including accurate tax returns, when visiting the TACs to have
 their tax returns prepared and filed. This audit is a follow-up to a prior Treasury Inspector
 General for Tax Administration (TIGTA) review.1

 Synopsis
 The TACs provide taxpayers personal, face-to-face assistance with tax matters. IRS assistors
 that work in the TACs help taxpayers by interpreting tax laws and regulations, resolving
 inquiries on taxpayer accounts, accepting payments, and providing various other services
 designed to minimize the burden on taxpayers in satisfying their tax obligations, including
 preparing certain individual tax returns. Generally, TAC assistors will prepare basic individual
 income tax returns for taxpayers with income less than $36,000 and that meet certain
 requirements and limitations.2
 A prior TIGTA audit reported that taxpayers do not always receive proper and accurate customer
 service assistance during tax return preparation. Specifically, in 21 (72 percent) of the
 29 anonymous visits conducted by TIGTA auditors, assistors at the TACs did not inform

 1
   Improvements Are Needed to Ensure Tax Returns Are Correctly Prepared at Taxpayer Assistance Centers
 (Reference Number 2004-40-025, dated December 2003).
 2
   A detailed list of requirements is provided later in the report.
                          Coordination and Monitoring Are Needed for Continued
                           Improvement in the Tax Return Preparation Process
                                   at the Taxpayer Assistance Centers


auditors of tax return preparation requirements prior to preparing or scheduling an appointment
to prepare the tax return. Assistors incorrectly prepared 19 (83 percent) of the 23 tax returns
prepared during these visits. In addition, the Field Assistance Office did not have a quality
review process for tax return preparation assistance.
Results from this review show improvements have been made in the tax return preparation
process. Our observations and testing of 47 tax returns showed that in all observations assistors
adequately screened taxpayers to ensure they met tax return preparation requirements. In
addition, assistors either helped taxpayers with the preparation of or ensured taxpayers prepared
an IRS Return Preparation Checklist, reviewed completed tax returns with taxpayers, and
provided them with completed copies of the tax returns. The accuracy rate of tax returns
prepared improved, with 37 of 47 (79 percent) tax returns tested correctly prepared.3 Ten of
47 (21 percent) tax returns tested were either incorrectly prepared or we could not determine if
the tax return was prepared correctly because the assistors did not ask sufficient questions to
determine eligibility for various credits and/or deductions.
However, opportunities exist for the Field Assistance Office to continue to provide quality
customer service to taxpayers needing tax return preparation assistance. Although Field
Assistance Office management has continued to emphasize to assistors that the Publication
Method Guide (Guide) must be used to prepare tax returns and to determine taxpayer
qualifications for various deductions and credits, assistors did not consistently adhere to this
requirement.4 For 32 of 47 (68 percent) observations, assistors did not use the Guide. In
addition, coordination does not exist between the Field Assistance and the Stakeholder
Partnerships, Education, and Communication (SPEC) Offices to share best practices used in the
Volunteer Income Tax Assistance (VITA) Program, such as the VITA Program’s Tax
Preparation Information Sheet (Form 13614) and Quality Alerts. Lastly, the Field Assistance
Office is not ensuring each TAC is assigned a unique Electronic Filing Identification Number
(EFIN)5 as required by the IRS for any office that electronically files tax returns.

Recommendations
We recommended the Commissioner, Wage and Investment Division (1) develop a partnership
between the Field Assistance and SPEC Offices to share best practices to improve the tax return
preparation process and (2) develop a process to ensure each TAC is assigned a unique EFIN.



3
  A tax return was considered accurate when the tax law was properly applied for the filing status and all income,
exemptions, deductions, and credits.
4
  Assistors should use the Guide to navigate through the complex maze of tax laws and computations and to walk
taxpayers through the related IRS publications, highlighting the relevant sections and asking the required probes.
5
  An EFIN is a number assigned by the IRS to identify which electronic return originator originated the tax return.
                                                                                                                      2
                           Coordination and Monitoring Are Needed for Continued
                            Improvement in the Tax Return Preparation Process
                                    at the Taxpayer Assistance Centers



Response
IRS management agreed with our recommendations and has initiated actions to work with the
SPEC Office to identify best practices to improve the tax return preparation process, including
revising the Field Assistance Office intake sheet and coordinating with the SPEC Office on the
issuance of Quality Alerts to Field Assistance Office employees to proactively address emerging
issues. In addition, they agreed each TAC should have a unique EFIN and are working to ensure
each TAC will have a unique identification number for the 2006 Filing Season.6 Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Programs),
at (202) 927-0597.




6
    The period from January through mid-April when most individual income tax returns are filed.




                                                                                                   3
                             Coordination and Monitoring Are Needed for Continued
                              Improvement in the Tax Return Preparation Process
                                      at the Taxpayer Assistance Centers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Improvements Have Been Made in the Tax Return Preparation Process.....Page 4
          Opportunities Exist for the Field Assistance Office to Continue to
          Provide Quality Customer Service to Taxpayers Needing Tax Return
          Preparation Assistance ..................................................................................Page 5
                    Recommendation 1:........................................................Page 11

                    Recommendation 2:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Taxpayer Assistance Centers Visited...................................Page 17
          Appendix V – Volunteer Quality Alerts Issued During the
          2005 Filing Season........................................................................................Page 18
          Appendix VI – Management’s Response to the Draft Report ......................Page 20
                         Coordination and Monitoring Are Needed for Continued
                          Improvement in the Tax Return Preparation Process
                                  at the Taxpayer Assistance Centers




                                             Background

The Internal Revenue Service (IRS) 2005 - 2009 Strategic Plan states that the IRS is committed
to helping people understand their tax obligations and to making it easier for them to participate
in the tax system. To help achieve this, complimentary, need-based tax return preparation is
offered to taxpayers that meet certain requirements. Generally, assistors in walk-in offices called
Taxpayer Assistance Centers (TAC) will prepare basic individual income tax returns for
taxpayers with income less than $36,000 (for 2004 tax returns) and that meet certain
requirements and limitations.1
The Field Assistance Office, responsible for overseeing the TAC Program, was created in the
IRS Customer Assistance, Relationships, and Education organization in the Wage and
Investment Division in Fiscal Year 2001. The
TACs provide taxpayers personal, face-to-face        The mission of the Field Assistance
assistance with tax matters. Assistors that          Office is to provide taxpayer assistance
                                                     by providing the right services at the
work in the TACs help taxpayers by                   right time in the right locations.
interpreting tax laws and regulations, resolving
inquiries on taxpayer accounts, accepting
payments, and providing various other services designed to minimize the burden on taxpayers in
satisfying their tax obligations, including preparing certain individual tax returns.
To reduce reliance on Small Business/Self-Employed Division support and to redirect resources
to face-to-face services that can be provided only in a TAC, beginning in Fiscal Year 2003 the
TACs began to reduce the number of returns prepared in the TACs by 20 percent. This reduction
continued in Fiscal Year 2005 and will continue into Fiscal Year 2006. The Field Assistance
Office will continue to support and promote tax return filing alternatives, such as free online
services on the IRS web site (IRS.gov) and Volunteer Income Tax Assistance (VITA)/Tax
Counseling for the Elderly, when taxpayers do not qualify or tax return preparation assistance is
not available at the TACs.




1
 Tax return preparation is limited to specific returns in the U.S. Individual Income Tax Return series (Forms 1040,
1040A, 1040EZ, and 1040X), Child and Dependent Care Expenses (Form 2441), Additional Child Tax Credit
(Form 8812), Qualified Adoption Expenses (Form 8839), Education Credits (Hope and Lifetime Learning Credits)
(Form 8863), Credit for Qualified Retirement Savings Contributions (Form 8880), and specific Form 1040 series
schedules (i.e., Itemized Deductions [Schedule A], Interest and Ordinary Dividends [Schedule B] (for interest only),
Net Profit From Business [Schedule C-EZ], Earned Income Credit [Schedule EIC], Credit for the Elderly or the
Disabled [Schedule R] or Credit for the Elderly or the Disabled for Form 1040A Filers [Schedule 3], and
Self-Employment Tax [Schedule SE] (in conjunction with Schedule C-EZ only)).
                                                                                                            Page 1
                         Coordination and Monitoring Are Needed for Continued
                          Improvement in the Tax Return Preparation Process
                                  at the Taxpayer Assistance Centers



For Calendar Year 2004, the Field Assistance Office assisted in the preparation and electronic
filing (e-file) of 215,396 Tax Year 2003 tax returns. Figure 1 provides key characteristics
relating to these 215,396 tax returns.
                     Figure 1: Tax Year 2003 Tax Return Characteristics
                           Type of Tax Return               Volume         Percentage of Total
                 1040                                        86,188                       40%
                 1040A                                       66,526                       31%
                 1040EZ                                      62,682                       29%
                 Totals                                     215,396                     100%
                 Filing Status                              Volume         Percentage of Total
                 Head of Household                           37,271                       17%
                 Married Filing Jointly                      18,386                        9%
                 Married Filing Separately                    8,448                        4%
                 Single                                     151,188                       70%
                 Widow(er) with Dependent Child                 103             Less than .1%
                 Totals                                     215,396                   100%
                 Credits Claimed                            Volume           Amount Claimed
                 Additional Child Tax                        21,372             $12,524,081
                 Qualified Adoption Expenses                      7                  $5,354
                 Child Tax                                   20,619             $11,519,050
                 Child and Dependent Care                     3,744              $1,714,576
                 Earned Income Tax                           82,991             $97,796,004
                 Education                                    7,945              $4,008,074
                 Gas                                              3                    $174
                 Totals                                     136,681            $127,567,313
                 Refund/Tax Due                             Volume           Amount Claimed
                 Refund                                     186,043            $212,505,403
                 Tax Due                                     26,670             $16,113,703
                 Breakeven                                    2,683                      $0
                 Total                                      215,396
               Source: Treasury Inspector General for Tax Administration (TIGTA) Data
               Center Warehouse.
This audit is a follow-up to a prior TIGTA audit.2 We previously reported that taxpayers do not
always receive proper and accurate customer service assistance during tax return preparation.


2
 Improvements Are Needed to Ensure Tax Returns Are Correctly Prepared at Taxpayer Assistance Centers
(Reference Number 2004-40-025, dated December 2003).
                                                                                                       Page 2
                       Coordination and Monitoring Are Needed for Continued
                        Improvement in the Tax Return Preparation Process
                                at the Taxpayer Assistance Centers



Specifically, in 21 (72 percent) of the 29 anonymous visits conducted by TIGTA auditors,
assistors did not inform auditors of the tax return preparation requirements prior to preparing or
scheduling an appointment to prepare the tax return. Assistors incorrectly prepared
19 (83 percent) of the 23 tax returns prepared during these visits. In addition, the Field
Assistance Office did not have a quality review process for tax return preparation assistance.
Assistors did not always prescreen taxpayers to ensure their tax returns met the requirements and
limitations, such as the type of tax return, types and amounts of income being reported, and
deductions claimed. In addition, assistors modified the facts provided by the auditors, did not
use the Paid Preparer’s Earned Income Credit Checklist (Form 8867) to ensure taxpayers met the
requirements for claiming the Earned Income Tax Credit, and did not use tax instructions and
publications to determine the taxpayers’ eligibility to receive credits and deductions.
In response to the report and TIGTA recommendations, IRS management (1) issued a
memorandum to all Field Assistance Office assistors requiring adherence to return preparation
screening procedures, (2) issued a memorandum to remind all applicable assistors to adhere to
return preparation procedures in the Internal Revenue Manual that require each assistor to use the
applicable worksheets prompted by the return preparation software and the publication method
or job aids to determine eligibility for deductions and credits, and (3) developed the Embedded
Quality Measurement System as a Quality Assurance Program to identify ways to improve the
accuracy and quality of services performed at the TACs.3
This follow-up review was performed at the IRS Wage and Investment Division Headquarters in
Atlanta, Georgia, and in 28 TACs located in the 5 Field Assistance Office geographic areas4
during the period December 2004 through June 2005. See Appendix IV for a listing of the TACs
visited. Testing included TIGTA auditors visiting the TACs posing as software vendors to
observe 42 TAC assistors prepare tax returns during the week of February 14, 2005. However,
shortly after we began our visits, there were indications assistors may have been aware that we
were TIGTA auditors. This may have affected the results of our observations if assistors
changed their behavior and/or prepared the tax returns differently because they knew they were
being observed by an auditor.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
  The process developed includes TAC group managers reviewing samples of completed tax returns using the
Embedded Quality Measurement System. We did not include an evaluation of the Embedded Quality Measurement
System’s effectiveness.
4
  The Field Assistance Office has approximately 400 TACs nationwide located in 5 geographic areas.
                                                                                                  Page 3
                      Coordination and Monitoring Are Needed for Continued
                       Improvement in the Tax Return Preparation Process
                               at the Taxpayer Assistance Centers




                                  Results of Review

Improvements Have Been Made in the Tax Return Preparation
Process

Observations and testing of 47 tax returns prepared by TAC assistors showed improvements
have been made in the TAC tax return preparation process. Observations made by TIGTA
auditors showed assistors:
•   Adequately screened taxpayers to ensure they met tax return preparation requirements in
    47 of 47 observations (100 percent). Field Assistance Office procedures require assistors to
    prescreen taxpayers to ensure their tax returns meet income and filing requirements. There
    were no instances in which taxpayers’ income exceeded the limit for assistance, and no
    schedules or forms outside the scope of services were prepared.
•   As required, either assisted taxpayers with the preparation of or ensured taxpayers prepared
    an IRS Return Preparation Checklist in 47 of 47 observations (100 percent). Field Assistance
    Office procedures require taxpayers to complete the Checklist and to bring it and other
    documentation with them to the appointments to prepare their tax returns. The Checklist
    provides the assistors with information such as the names of the taxpayers and any
    dependents, dates of birth, filing status, etc.
•   Reviewed completed tax returns with taxpayers and provided them with completed copies of
    the tax returns in 47 of 47 observations (100 percent). Field Assistance Office procedures
    require taxpayers to be provided a paper copy of their prepared returns and related signature
    documents.
•   Offered to prepare State tax returns in the TACs where State tax returns can be prepared and
    e-filed. Taxpayers elected to have their State tax returns prepared and e-filed in 22 instances.
    State tax returns may be prepared in conjunction with Federal tax returns using the same
    income and schedule limits applicable to the Federal returns. However, State tax returns will
    be prepared only when they are based on Federal return data and require no additional
    computations or input.
In addition, testing of the 47 tax returns to determine if they were prepared correctly (i.e., the tax
law was properly applied for the filing status and all income, exemptions, deductions, and
credits) showed:
•   Thirty-seven (79 percent) were correctly prepared.

                                                                                               Page 4
                        Coordination and Monitoring Are Needed for Continued
                         Improvement in the Tax Return Preparation Process
                                 at the Taxpayer Assistance Centers



•   Ten (21 percent) were either incorrectly prepared or we could not determine if the tax returns
    had been prepared correctly.
    o Three tax returns were incorrectly prepared. For two of the three returns, the Advance
      Earned Income Credits reported on the Wage and Tax Statements (Form W-2) were not
      correctly reported on the taxpayers’ tax returns. This resulted in overstated tax refunds of
      $61 and $360. For the remaining tax return prepared incorrectly, the assistor told the
      taxpayer he or she qualified for Head of Household filing status but prepared the return
      using the Single filing status. Since the taxpayer did not owe any tax, there was no effect
      on taxes owed or a tax refund due.
    o Seven tax returns were considered to be incorrectly prepared because assistors did not ask
      sufficient questions to determine eligibility for various credits and/or deductions.
      Counting these tax returns as incorrectly prepared is consistent with the scoring method
      the IRS uses in its Embedded Quality Measurement System.
Observing assistors while they prepared the 47 tax returns could bias the results. In a
November 2004 report, the Government Accountability Office (GAO) stated that observing
taxpayer/assistor interaction could yield “biased data, because assistors will know they are being
observed, which could influence their behavior.”5 Consequently, the accuracy rates resulting
from TIGTA observations may not be representative of true performance.


Opportunities Exist for the Field Assistance Office to Continue to
Provide Quality Customer Service to Taxpayers Needing Tax Return
Preparation Assistance

Coordination with another Wage and Investment Division office and improved monitoring are
needed to ensure the Field Assistance Office provides enhanced quality customer service to
taxpayers needing tax return preparation assistance.




5
 Tax Administration: IRS Improved Performance in the 2004 Filing Season, But Better Data on the Quality of
Some Services Are Needed (GAO-05-67, dated November 2004).
                                                                                                       Page 5
                         Coordination and Monitoring Are Needed for Continued
                          Improvement in the Tax Return Preparation Process
                                  at the Taxpayer Assistance Centers



TAC assistors did not consistently use required tools when preparing tax returns

Field Assistance Office management issued memoranda to assistors requiring them to use tax
return preparation software worksheets when preparing income tax returns.6 In addition, they
should use the Publication Method Guide (Guide) and existing return preparation instructions for
all other credits and deductions not listed in the tax return preparation software worksheets.
Assistors should use the Guide to navigate through the complex maze of tax laws and
computations and to walk taxpayers through the related IRS publications, highlighting the
relevant sections and asking the required probes. The Guide contains over 1,000 pages and
covers approximately 77 tax law topics. It is available in paper or electronic versions.
Field Assistance Office management has also issued memoranda to group managers asking them
to reinforce the policy requiring assistors to use the Guide when preparing tax returns. Although
Field Assistance Office management has continued to emphasize to assistors that the Guide must
be used when preparing tax returns to determine taxpayer qualifications for various deductions
and credits, assistors do not consistently adhere to this requirement. Assistors did not use the
Guide for 32 of 47 observations (68 percent).
However, when the Guide was not used, assistors used worksheets included in the electronic
software tax preparation package and/or asked sufficient questions of the taxpayer when
determining eligibility. For example, for:
•   Thirty of 32 observations (94 percent) assistors used required worksheets.
•   Twenty-five of 32 observations (78 percent) assistors asked sufficient questions.
Although the majority of tax returns were accurately prepared, the risk increases that taxpayers
may incorrectly receive or not receive credits and/or deductions to which they are qualified if the
Guide is not used and procedures are not followed. The Guide is designed to help assistors in
ensuring taxpayers meet the necessary qualifications when determining eligibility to receive
certain credits and/or deductions. In addition, the process is designed to educate the taxpayers on
what requirements must be met to receive certain credits and/or deductions.
Field Assistance Office management advised us they are considering nonuse of the Guide as a
conduct issue for assistors. Therefore, at this time, we are making no recommendation to address
this issue. Field Assistance Office management should continue pursuing this and other options
to ensure procedures are followed.



6
 Worksheets included in the electronic software tax preparation package are US 1040 Wkt1 (Social Security, Other
Income), US 1040 Wkt2 (Student Loan, Education), US 1040 Wkt3 (Child Tax Credit, Carryovers), US Schedule
EIC (Earned Income Credit), US Form 8867 Pg1 (Paid Preparer EIC Checklist Pg 1), and US Form 8867 Pg2 (Paid
Preparer EIC Checklist Pg2).
                                                                                                         Page 6
                        Coordination and Monitoring Are Needed for Continued
                         Improvement in the Tax Return Preparation Process
                                 at the Taxpayer Assistance Centers



The Field Assistance Office does not coordinate with the Stakeholder
Partnerships, Education, and Communication (SPEC) Office to obtain best
practices used in its VITA Program

The SPEC Office is responsible for overseeing the VITA Program, which provides Federal tax
return preparation and e-filing targeting underserved segments of individual taxpayers, including
low-income, elderly, disabled, and limited-English-proficient taxpayers. The VITA Program
plays an increasingly important role in the IRS goal of improving taxpayer service and
facilitating participation in the tax system. The SPEC Office, along with the Field Assistance
Office, is within the Customer Assistance, Relationships, and Education organization.
Taxpayers that visit VITA Program sites to have their tax returns prepared are frequently
involved in intricate family situations that make it difficult to correctly understand and apply the
complex tax law. The SPEC Office, in response to concerns raised in a prior TIGTA review, has
established and implemented a number of initiatives and processes that have resulted in
significant improvements in the VITA Program.7
Process improvements made by the SPEC Office could provide a best practice for the Field
Assistance Office if implemented in the TACs. Examples of best practices from the VITA
Program that could assist the Field Assistance Office in delivering quality customer service
include the use of the Tax Preparation Information Sheet (Form 13614) and Quality Alerts.
•   Form 13614 – This “intake sheet” provides a standardized list of required intake questions to
    guide volunteers in asking taxpayers basic questions about the taxpayer and his or her
    situation and circumstances. The intake sheet is used to open dialogue between the taxpayer
    and the volunteer, allowing the volunteer to become acquainted with the taxpayer’s unique
    set of facts. The VITA Program intake sheet provides assistors with the ability to more
    effectively determine a taxpayer’s unique set of facts as it relates to tax law.
Figures 2 and 3 provide excerpts from the two intake sheets used by the Field Assistance Office
at TACs and the SPEC Office at VITA Program sites.




7
 Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue Service Volunteer
Income Tax Assistance Sites (Reference Number 2004-40-154, dated August 2004).
                                                                                                     Page 7
                    Coordination and Monitoring Are Needed for Continued
                     Improvement in the Tax Return Preparation Process
                             at the Taxpayer Assistance Centers



                      Figure 2: IRS Return Preparation Checklist
  Taxpayer Information (please print)

  Name____________________________
  SSN __________________________

  Date of Birth_______________________
  Occupation_____________________

  Spouse Name_________________________
  SSN__________________________

  Date of Birth__________________________
  Occupation_____________________

  Street Address or P.O. Box_________________________

  City _________________ State____ Zip Code __________
  Phone Number (____)___________

  Filing Status (Check one):_____Single   _____Married Filing Joint
   _____Married Filing Separate    _____Head of Household
                             _____Qualifying Widow (er), year of death
                          _________

  Dependents*

                                                                        Months
 First Name        Last Name         DOB           SSN     Relationship in Home
                                      /   /         /  /
                                      /   /         /  /
 *Attach another sheet for additional dependents

  Do you want your refund direct deposited?   Yes_____     No_____

  Source: IRS Field Assistance Office.

                           Figure 3: VITA Program Form 13614




Source: IRS SPEC Office.




                                                                                  Page 8
                         Coordination and Monitoring Are Needed for Continued
                          Improvement in the Tax Return Preparation Process
                                  at the Taxpayer Assistance Centers



•   Quality Alerts – Volunteer Quality Alerts are issued to proactively address emerging issues
    affecting the quality of tax return preparation. Throughout the 2005 Filing Season,8 the
    SPEC Office and its partners9 issued 11 Alerts. These Quality Alerts were used to enhance
    the quality of tax returns prepared in the VITA Program by informing volunteers of certain
    tax issues that may be adversely affecting the accuracy of tax returns. See Appendix V for a
    complete listing of these Quality Alerts.
    One Quality Alert instructed volunteers to use the Form W-2 with the intake sheet and a
    strong interview as they prepare tax returns. It stated that every entry on the Form W-2 is
    critical in completing an accurate tax return. See Figure 4 for a copy of this Quality Alert.




8
 The period from January through mid-April when most individual income tax returns are filed.
9
 The VITA Program partners include social service, nonprofit, corporate, financial, educational, and government
organizations.
                                                                                                          Page 9
                       Coordination and Monitoring Are Needed for Continued
                        Improvement in the Tax Return Preparation Process
                                at the Taxpayer Assistance Centers



                           Figure 4: Volunteer Quality Alert 2005-05




Source: IRS SPEC Office.


                                                                          Page 10
                     Coordination and Monitoring Are Needed for Continued
                      Improvement in the Tax Return Preparation Process
                              at the Taxpayer Assistance Centers



In two of the three incorrectly prepared tax returns tested, assistors did not enter the Advance
Earned Income Credit as reported on the Form W-2 when preparing the taxpayers’ tax returns.
If Volunteer Quality Alert 2005-05 had been distributed to the TACs, it may have reminded the
assistors of the need to ensure every entry included in the Form W-2 is critical to the accurate
preparation of a tax return.

Unique Electronic Filing Identification Numbers (EFIN) were not assigned to every
TAC

The IRS requires that participants in its e-file program use unique numbers called EFINs to
identify who originated the tax return and the office transmitting the electronic return. The EFIN
is a six-digit number assigned by the IRS; there should be only one EFIN for the same business
entity and address. Therefore, each office preparing e-filed tax returns should have a unique
EFIN, including each TAC.
The Field Assistance Office has not developed a process to identify the EFINs currently assigned
to each TAC, nor is it ensuring each TAC has a unique EFIN assigned. An EFIN listing
provided in December 2004 by Field Assistance Office management showed EFINs were:
•   Still maintained for closed TACs.
•   Not assigned to all open TACs.
•   Used by multiple TACs. For example, four TACs were assigned to one EFIN.
If unique EFINs are not assigned to each TAC, the IRS will not be in conformance with its own
e-file requirements. Further, without the proper assignment of unique EFINs to each TAC,
Field Assistance Office management will be unable to assess the quality of the tax return
preparation in a particular TAC. Unique EFINs will allow Field Assistance Office managers to
determine by TAC the number of tax returns rejected from the e-file program and the reasons the
tax returns were rejected.


Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a partnership between the Field Assistance and SPEC Offices
to share best practices to improve the tax return preparation process. This would include
replacing the Field Assistance Office intake sheet with the one used by the VITA Program and
using Quality Alerts to address emerging issues affecting TAC tax return preparation.
       Management’s Response: IRS management agreed with this recommendation and
       has initiated actions to work with the SPEC Office to identify best practices to improve
                                                                                          Page 11
                    Coordination and Monitoring Are Needed for Continued
                     Improvement in the Tax Return Preparation Process
                             at the Taxpayer Assistance Centers



      the tax return preparation process, including revising the Field Assistance Office intake
      sheet and coordinating with the SPEC Office on the issuance of Quality Alerts to Field
      Assistance Office employees to proactively address emerging issues.
Recommendation 2: Develop a process to ensure each TAC is assigned a unique EFIN.
      Management’s Response: IRS management agreed with this recommendation and is
      working to ensure each TAC has a unique EFIN for the 2006 Filing Season.




                                                                                         Page 12
                         Coordination and Monitoring Are Needed for Continued
                          Improvement in the Tax Return Preparation Process
                                  at the Taxpayer Assistance Centers



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers receive quality service,
including accurate tax returns, when visiting the Taxpayer Assistance Centers (TAC)1 to have
their tax returns prepared and filed. Specifically, we:
I.      Determined the process the Internal Revenue Service (IRS) follows to ensure tax returns
        prepared at the TACs are correctly prepared.
        A. Identified key controls designed to ensure tax returns are prepared correctly.
        B. Identified actions the IRS has taken in response to issues cited in a prior Treasury
           Inspector General for Tax Administration (TIGTA) report.2
II.     Determined whether key controls are functioning as intended.
        A. TIGTA auditors posed as software vendors from a fictitious company supposedly
           hired by the IRS to develop tax preparation software for the TAC Tax Preparation
           Program. During the week of February 14, 2005, the auditors observed 42 TAC
           employees prepare 47 Tax Year 2004 tax returns at a sample of the TACs nationwide
           and assessed the accuracy of the tax returns prepared, including the customer service
           provided to the taxpayers.
             We selected the TACs in the States visited during another current TIGTA audit.3
             This was done in the event a decision was made to perform comparative analysis
             between the two tax return preparation processes. During that audit, auditors planned
             to visit Volunteer Income Tax Assistance sites in Arizona, California, Florida,
             Georgia, Illinois, Louisiana, Maine, Massachusetts, New Hampshire, New York,
             North Carolina, Ohio, Pennsylvania, and Texas. In addition, at the request of Field
             Assistance Office management, we visited only those TACs with a group manager on
             site. See Appendix IV for a listing of TACs visited.




1
  The TACs provide taxpayers personal, face-to-face assistance with tax matters. Assistors that work in the TACs
help taxpayers by interpreting tax laws and regulations, resolving inquiries on taxpayer accounts, accepting
payments, and providing various other services designed to minimize the burden on taxpayers in satisfying their tax
obligations, including preparing certain individual tax returns.
2
  Improvements Are Needed to Ensure Tax Returns Are Correctly Prepared at Taxpayer Assistance Centers
(Reference Number 2004-40-025, dated December 2003).
3
  Tax Return Preparation at Volunteer Income Tax Assistance Sites (Audit # 200540002).
                                                                                                           Page 13
                          Coordination and Monitoring Are Needed for Continued
                           Improvement in the Tax Return Preparation Process
                                   at the Taxpayer Assistance Centers



         B. Analyzed data from the Individual Master File4 Returns Transaction File5 Subset File
            at the TIGTA Data Center Warehouse to identify the characteristics of taxpayers that
            had a 2003 tax return prepared at the TACs.
         C. Performed analyses that included reviewing the information documented by auditors
            during the observation process, as well as reviewing documentation provided by the
            taxpayer to the assistors that was maintained by the IRS subsequent to the
            preparation, and determined whether the assistors’ actions met procedural and
            regulatory guidelines.




4
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
5
  The Return Transaction File is the IRS database that maintains information captured on the tax return as it was
filed and processed by the IRS.
                                                                                                             Page 14
                    Coordination and Monitoring Are Needed for Continued
                     Improvement in the Tax Return Preparation Process
                             at the Taxpayer Assistance Centers



                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Paula Johnson, Audit Manager
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Grace Terranova, Lead Auditor
Deborah Drain, Senior Auditor
Lynn Faulkner, Senior Auditor
Jack Forbus, Senior Auditor
Sharla Robinson, Senior Auditor
Sharon Shepherd, Senior Auditor
Roberta Fuller, Auditor
Joseph Butler, Information Technology Specialist




                                                                                         Page 15
                    Coordination and Monitoring Are Needed for Continued
                     Improvement in the Tax Return Preparation Process
                             at the Taxpayer Assistance Centers



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Acting Director, Stakeholder Partnerships, Education, and Communication, Wage and
Investment Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 16
                        Coordination and Monitoring Are Needed for Continued
                         Improvement in the Tax Return Preparation Process
                                 at the Taxpayer Assistance Centers



                                                                                            Appendix IV

                 Taxpayer Assistance Centers Visited

       Area 11                 Area 2                   Area 3               Area 4               Area 5
Boston, Massachusetts    Chicago, Illinois       Atlanta, Georgia       Phoenix, Arizona   Santa Ana, California
                         Downers Grove,
Brooklyn, New York       Illinois                Augusta, Georgia       Tucson, Arizona    San Diego, California
New York, New York                                                                         San Marcos,
(Midtown)                Peoria, Illinois        Columbus, Georgia      Houston, Texas     California
Bethlehem,                                                              San Antonio,
Pennsylvania             Springfield, Illinois   Miami, Florida         Texas
Harrisburg,
Pennsylvania                                     Plantation, Florida
Philadelphia,                                    Port St. Lucie,
Pennsylvania                                     Florida
                                                 Baton Rouge,
                                                 Louisiana
                                                 Lafayette, Louisiana
                                                 New Orleans,
                                                 Louisiana
Source: Treasury Inspector General for Tax Administration Taxpayer Assistance Center Selection.

We visited multiple Taxpayer Assistance Centers in Phoenix, Arizona, and Houston, Texas.




1
 The Field Assistance Office has approximately 400 Taxpayer Assistance Centers nationwide located in
5 geographic areas.
                                                                                                         Page 17
                           Coordination and Monitoring Are Needed for Continued
                            Improvement in the Tax Return Preparation Process
                                    at the Taxpayer Assistance Centers



                                                                                                   Appendix V

               Volunteer Quality Alerts Issued During the
                          2005 Filing Season                                   1




     Quality
      Alert          Date of
     Number         Issuance                 Title                           Objective of Quality Alert
      2005-1       01/14/2005    Grandniece/Grandnephew         To ensure an accurate determination as to whether a
                                                                grandniece/grandnephew is considered a qualifying
                                                                person for the Head of Household filing status or a
                                                                qualifying child for the Earned Income Tax Credit
                                                                and/or the Child Tax Credit.
      2005-2       02/27/2005    Tax Treatment Cash             To ensure accurate tax treatment of Tsunami Relief
                                 Contributions for              contributions.
                                 Tsunami Relief
      2005-3       02/04/2005    Asking the Right               To obtain the information necessary to assist
                                 Questions                      customers in preparing and filing accurate tax
                                                                returns. To confirm the data received are complete.
                                                                To use a strong quality review process to assure the
                                                                information is accurately included and reflected on
                                                                the customer’s tax return. To ensure the proper use
                                                                of intake information sheet information, proper use of
                                                                reference guide material, and quality review of each
                                                                tax return prepared.
      2005-4       02/15/2005    Filing & Marital Status -      To ensure volunteers correctly determine filing status
                                 The Tax Connection             (e.g., Single, Head of Household) by not making
                                                                assumptions but instead conduct a quality interview
                                                                and use reference materials to guide determinations.
      2005-5       03/15/2005    Form W-2 Wage and Tax          To ensure volunteers use the income statements in
                                 Statement                      combination with the intake sheet and a strong
                                                                interview as tax returns are prepared, consider every
                                                                entry on the Wage and Tax Statement (Form W-2) as
                                                                critical in completing an accurate tax return, and
                                                                consider what they see and enter what they see.




1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 18
                        Coordination and Monitoring Are Needed for Continued
                         Improvement in the Tax Return Preparation Process
                                 at the Taxpayer Assistance Centers



   Quality
    Alert         Date of
   Number        Issuance                 Title                          Objective of Quality Alert
   2005-6       03/14/2005    Top 3 e-file Rejects          To avoid the top three causes for electronically filed
                                                            (e-file) tax returns to reject from Internal Revenue
                                                            Service processing – ensure information from
                                                            Form W-2 is accurately entered on a tax return and
                                                            ensure Social Security Numbers, birth dates, and
                                                            names of qualifying children are accurate on Earned
                                                            Income Credit (Schedule EIC).
   2005-7       03/07/2005    Other Income                  To ensure accurate treatment of interest, dividends,
                                                            and gambling income through the use of the quality
                                                            review of the tax return. To ensure volunteers review
                                                            intake/taxpayer information sheet to determine if
                                                            other income is indicated by the taxpayer.
   2005-8       03/11/2005    Child & Dependent Care        To ensure volunteers correctly determine the Child
                              Credit                        and Dependent Care Credit by ensuring they prepare
                                                            a Child and Dependent Care Expenses (Form 2441),
                                                            including boxes on the Main Information screen, if
                                                            using the Tax Wise tax return preparation computer
                                                            application.
   2005-9       03/17/2005    Adjustments                   To ensure volunteers determine whether the
                                                            taxpayers are eligible for specific adjustments.
                                                            Adjustments are subtractions from total income.
                                                            Total income minus adjustments results in Adjusted
                                                            Gross Income, an important number for tax purposes.
                                                            Adjustments generally covered in the Volunteer
                                                            Income Tax Assistance (VITA) Program include
                                                            Educator Expenses, Individual Retirement
                                                            Arrangements, Student Loan Interest, Tuition and
                                                            Fees, One-Half of Self-Employment Tax, Penalty on
                                                            Early Withdrawal of Savings, and Alimony.
   2005-10      04/06/2005    Form 1098-T                   To ensure volunteers correctly determine
                              [Tuition Statement]           education-related tax benefits.
   2005-11      04/08/2005    Post Filing Season            To close the VITA Program site while maintaining
                              Reminders                     taxpayer confidentiality and maximizing remaining
                                                            resources.
Source: Auditor analysis of Quality Alerts issued by the Stakeholder Partnerships, Education, and Communication
Office.




                                                                                                         Page 19
      Coordination and Monitoring Are Needed for Continued
       Improvement in the Tax Return Preparation Process
               at the Taxpayer Assistance Centers



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 20
Coordination and Monitoring Are Needed for Continued
 Improvement in the Tax Return Preparation Process
         at the Taxpayer Assistance Centers




                                                   Page 21
Coordination and Monitoring Are Needed for Continued
 Improvement in the Tax Return Preparation Process
         at the Taxpayer Assistance Centers




                                                   Page 22
Coordination and Monitoring Are Needed for Continued
 Improvement in the Tax Return Preparation Process
         at the Taxpayer Assistance Centers




                                                   Page 23
